  Department of Health and Human Services

          OFFICE OF
     INSPECTOR GENERAL




     THE EMERGENCY MEDICAL
    TREATMENT AND LABOR ACT

Survey of Hospital Emergency Departments




                        JANUARY 2001
                        OEI-09-98-00220
                         OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                           Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's San Francisco regional office prepared this report under the direction of Paul A. Gottlober,
Regional Inspector General. Principal OEI staff included:

REGION                                                  HEADQUARTERS

Cindy Lemesh, Project Leader                            Bambi Straw, Program Specialist

Scott Hutchison, Lead Analyst

Rob Gibbons, Program Analyst

Tom Purvis, Program Analyst





     To obtain copies of this report, please call the San Francisco Regional Office at 415-437-7900.
          Reports are also available on the World Wide Web at our home page address:

                                  http://www.dhhs.gov/progorg/oei
                 EXECUTIVE                         SUMMARY

PURPOSE

     To determine whether staff and directors of hospital emergency departments are aware of
     the various provisions of the Emergency Medical Treatment and Labor Act (EMTALA)
     and find out how they believe the Act affects them, their hospitals, and their patients.


BACKGROUND

EMTALA

     Congress passed EMTALA, part of the Consolidated Omnibus Reconciliation Act
     (COBRA) of 1985, in April of 1986 to address the problem of “patient dumping.” The
     term “patient dumping” refers to certain situations where hospitals fail to screen, treat, or
     appropriately transfer patients. According to Section 9121 of COBRA, Medicare-
     participating hospitals must provide a medical screening exam to any individual who
     comes to the emergency department and requests examination or treatment for a medical
     condition. If a hospital determines that an individual has a medical emergency, it must
     then stabilize the condition or provide for an appropriate transfer. The hospital is
     obligated to provide these services regardless of the individual’s ability to pay and without
     delay to inquire about the individual’s method of payment or insurance status.

     Hospitals' EMTALA responsibilities are incorporated in their Medicare provider
     agreements. The Health Care Financing Administration (HCFA) requires that hospitals
     comply with the above EMTALA provisions and also: post signs informing patients of
     their rights to screening and treatment, keep a central log of emergency department visits,
     maintain patient transfer records, and report any inappropriate transfers. Failure to fulfill
     any of these obligations is considered a breach of the provider agreement and grounds for
     termination. Medicare provider agreements also require hospitals to maintain a back-up
     call panel for any service for which the hospital promotes itself to the community. Failure
     of a specialist to report to the emergency department to complete a screening or provide
     stabilizing treatment can result in penalties for both the hospital and specialist.

Methodology

     We conducted a telephone survey of emergency department directors at more than
     100 randomly-selected hospitals across the nation and a mail survey of emergency
     department and on-call personnel at the same hospitals. In addition to the surveys, we met
     with representatives from the California chapter of the American College of Emergency
     Physicians and reviewed numerous articles and reports on the subject of



  EMTALA — Emergency Department Survey         1                                      OEI-09-98-00220
      emergency medicine. Throughout this study, we protected the identities of our
      respondents.


FINDINGS

Emergency department personnel are familiar with EMTALA requirements, but
many are unaware of recent policy changes

      Emergency department physicians, nurses, registration staff, and on-call specialists

      indicate that they are familiar with most of EMTALA’s requirements. Almost all directors

      say they regularly receive information about EMTALA, however, only

      65 percent were aware of the 1998 Interpretive Guidelines and only 27 percent knew of

      the proposed Advisory Bulletin which had been published in the Federal Register.


Training increases EMTALA familiarity for all staff, but on-call specialists and
staff in high-volume emergency departments are less likely to receive training

      Training increases EMTALA awareness, and nearly two-thirds of emergency physicians,
      nurses, and registration staff receive training. However, only one-quarter of on-call
      specialists are trained on EMTALA guidelines. Aside from emergency physicians, staff in
      high-volume emergency departments are less likely to be trained than their counterparts in
      less busy environments.

Respondents report that hospitals generally comply with EMTALA, but some
concerns about compliance remain

      Ninety-five percent of staff say their hospital complies with EMTALA. Registration staff
      say that patients are normally not asked for health insurance information until after medical
      screening. Some hospitals routinely request authorization for services from health plans,
      but this usually takes place after the exam or treatment is underway or has been
      completed. A small number of respondents are concerned that some hospital practices
      may violate the law.

Respondents believe some aspects of EMTALA are unclear or questionable

      Staff need more precise definitions of the terms "emergency medical condition," "medical
      screening exam," and "stability" as well as clarification of certain aspects of patient
      transfers under EMTALA. Directors and staff sometimes receive conflicting information
      which contributes to their confusion. Some respondents believe that some current
      EMTALA interpretations and practices exceed legislative intent, especially with regard to
      the law’s application to inpatients.




   EMTALA — Emergency Department Survey        2                                      OEI-09-98-00220
Respondents believe that while EMTALA may help protect patients, it also may
contribute to a hospital’s administrative and financial problems

      Directors find that EMTALA has generally had a positive effect or no effect on the
      delivery of emergency services. In contrast to any patient care improvements, respondents
      say that EMTALA has had a negative effect on other aspects of emergency medicine.
      Staff say it creates administrative entanglements, while some directors argue that
      mandating treatment without providing funding aggravates financial difficulties.

Investigations, many of which do not confirm violations, often prompt changes in
forms and procedures

      According to HCFA logs, violations were confirmed in less than one-third of
      investigations of the hospitals in our sample. Despite this, half of the investigated
      hospitals changed some aspect of their emergency department operation in response.

Managed care creates special problems for hospitals in complying with EMTALA

      According to many directors, private managed care plans’ reimbursement policies create
      financial stresses, a situation exacerbated by EMTALA. Prior authorization requirements
      leave many hospitals with a tough choice: risk an EMTALA violation or forgo
      reimbursement.

Hospitals have difficulty staffing on-call panels for some specialties

      Medicare provider agreements require hospitals to maintain a specialty call panel for any
      service for which the hospital promotes itself to the community, but many hospitals have
      problems filling on-call rosters. Shortages most often occur because the community does
      not provide enough patients to support specialists or because certain services are not
      offered at the hospital. Specialists are increasingly refusing to join back-up panels, a
      critical element of the Nation's health care safety net, because they believe they might not
      be paid.


CONCLUSIONS

      <	
      <    Federal Register publication should be supplemented with other methods of
           communicating important policy decisions, such as e-mail and the Internet.

      <	
      <    The Department should continue to support legislation that would compel
           private managed care plans to reimburse hospitals for EMTALA-related
           services provided to their members, including screening exams which do not
           reveal the presence of an emergency medical condition.




   EMTALA — Emergency Department Survey         3                                     OEI-09-98-00220
     <	   Uncompensated care and on-call panels are problems for many hospitals. These
          are very complex problems which exceed the scope of our study; solutions may
          involve action at the Federal, State, and local levels as well as from private
          entities.


AGENCY COMMENTS

     We received written comments from HCFA on the draft report (see Appendix B). The
     HCFA agreed with our conclusions. The HCFA also offered several technical comments,
     which we have incorporated where appropriate.




  EMTALA — Emergency Department Survey     4                                 OEI-09-98-00220
                         TABLE                          OF               CONTENTS

                                                                                                                                  PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


          Purpose . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


          Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


          Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8


FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


          Respondents familiar with EMTALA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


          Most staff trained . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


          Hospital generally comply . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12


          Some policies unclear, others questionable . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13


          Care improved, but hospitals burdened . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15


          Investigations result in procedural changes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15


          Special problems with managed care . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16


          Specialist coverage an issue . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17


CONCLUSIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18


APPENDIX


          Sample confidence intervals . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19


          Agency comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20





     EMTALA — Emergency Department Survey                            5                                                     OEI-09-98-00220
                                 INTRODUCTION

PURPOSE

        To determine whether staff and directors of hospital emergency departments are aware of
        the various provisions of the Emergency Medical Treatment and Labor Act (EMTALA)
        and find out how they believe the Act affects them, their hospitals, and their patients.


BACKGROUND

EMTALA Requirements

        Congress passed EMTALA, part of the Consolidated Omnibus Reconciliation Act
        (COBRA) of 1985, in April of 19861 to address the problem of “patient dumping.” The
        term “patient dumping” refers to certain situations where hospitals fail to screen, treat, or
        appropriately transfer patients. According to Section 9121 of COBRA, Medicare-
        participating hospitals must provide a medical screening exam to any individual who
        comes to the emergency department and requests examination or treatment for a medical
        condition. If a hospital determines that an individual has an emergency medical condition2,
        it must then stabilize the condition or provide for an appropriate transfer. The hospital is
        obligated to provide these services regardless of the individual’s ability to pay and without
        delay to inquire about the individual’s method of payment or insurance status. Hospitals
        may transfer unstable patients only if a physician determines that the benefits of the
        transfer outweigh the risks or if requested by a patient who has been informed of both the
        hospital’s EMTALA obligations and the risks of transfer. Hospitals with specialized care
        facilities, such as burn units, must, within their capacity, accept requests for appropriate
        transfers of patients who require such specialized care.

        Hospitals' EMTALA responsibilities are incorporated in their Medicare provider
        agreements. The Health Care Financing Administration (HCFA) requires that hospitals
        comply with the above EMTALA provisions and also: provide a medical screening
        examination, provide necessary stabilizing treatment and appropriate transfers, post signs
        informing patients of their rights to screening and treatment, keep a central log of
        emergency department visits, maintain patient transfer records, and report any



        1
         EMTALA became effective on August 1, 1986
        2
           Emergency medical condition is defined by law as “a medical condition manifesting itself by acute
symptoms of sufficient severity (including severe pain) such that the absence of immediate medical attention could
reasonably be expected to result in (i) placing the health of the individual (or, with respect to a pregnant woman,
the health of the woman or her unborn child) in serious jeopardy; (ii) serious impairment to bodily functions; or
(iii) serious dysfunction of any bodily organ or part. . .”

    EMTALA — Emergency Department Survey                 6                                           OEI-09-98-00220
      inappropriate transfers. Failure to fulfill any of these obligations is considered a breach of
      the provider agreement and grounds for termination.

      The EMTALA responsibilities extend to on-call specialists as well as to hospitals and
      emergency department staff. Medicare provider agreements require hospitals to maintain
      a list of on-call physicians who can complete medical screening exams or provide
      stabilizing treatment for any service for which the hospital promotes itself to the
      community. Failure of an on-call specialist to report to the emergency department to
      provide stabilizing treatment, unless he or she is unable to do so (e.g., already engaged in
      treating another emergency), can result in penalties for both the hospital and the specialist.

Enforcement

      Within the Department of Health and Human Services, the Health Care Financing
      Administration (HCFA) and the Office of Inspector General (OIG) are jointly responsible
      for enforcement of EMTALA. The HCFA authorizes State survey agencies to investigate
      dumping complaints, determines if a violation occurred, and, if appropriate, terminates a
      hospital’s provider agreement. The OIG3 assesses civil monetary penalties against
      hospitals and physicians and may exclude physicians from the Medicare program for gross
      and flagrant or repeated violations of EMTALA. The OIG may fine a physician or
      hospital up to $50,000 per violation ($25,000 for hospitals with fewer than 100 beds), but
      may impose smaller penalties depending on the situation and the financial state of the
      hospital. For more information on EMTALA investigations and the EMTALA complaint
      and enforcement process, see the companion report entitled The Emergency Medical
      Treatment and Labor Act: The Enforcement Process (OEI-09-98-00221).

Previous OIG Work

      Shortly after Congress enacted EMTALA, the Office of Inspector General conducted two
      EMTALA inspections. The first inspection, whose purpose was to determine if hospital
      records provide enough information to assess the incidence of patient dumping, found that
      (1) medical record review did not provide the necessary information to assess the
      incidence of dumping and (2) hospital staff disagreed about the prevalence of patient
      dumping. The second inspection, meant to assess the patient dumping complaint and
      investigation process within the Department of Health and Human Services, found that (1)
      the process was still evolving, (2) coordination among different components needed
      improvement, (3) dumping complaints were increasing, and (4) resolution of dumping
      complaints was time consuming. A third report, issued by OIG in 1995, focused on
      HCFA’s role in the enforcement process. Although the report concluded that the
      investigation process was generally effective, it highlighted inconsistencies among the
      regional offices with respect to their procedures and compliance with HCFA guidelines.




      3
       The Office of Counsel to the Inspector General performs this function for OIG.

   EMTALA — Emergency Department Survey              7                                  OEI-09-98-00220
Emergency Department Statistics4

        According to the Centers for Disease Control and Prevention, there were 100.4 million
        emergency department visits in 1998. The expected source of payment for almost
        40 percent of these visits was private insurance, with Medicaid and self-payment following
        at 18 and 15 percent, respectively. Eighteen percent of visits were from patients in health
        maintenance organizations.5 Triage staff classified 19 percent of visits as emergent (to be
        seen within 15 minutes) and another 31 percent as urgent (to be seen in 15 - 60 minutes).
        Chest pain was the principal complaint for over 40 percent of emergent patients, and their
        average actual wait time was about 20 minutes.


METHODOLOGY

        We conducted two surveys to achieve the objectives of this study. The first was a
        telephone survey of emergency department directors at hospitals across the nation. The
        second was an anonymous mail survey of emergency room and on-call personnel at the
        same hospitals. In addition to the surveys, we met with national representatives from the
        American College of Emergency Physicians (ACEP) as well as ACEP’s California chapter.
        We also reviewed numerous articles and reports on the subject of emergency medicine.

        To create the sample of hospitals used for both surveys, we first used Medicare provider
        certification data to create a universe of Medicare-participating hospitals with emergency
        departments. We then removed military and psychiatric hospitals from the universe.6 We
        stratified the remaining hospitals into three categories (small, medium, and large) and
        selected a random sample of hospitals from each stratum (see Figure 1).

                                        Figure 1: Hospital Strata7
      Size        Number of beds           Number in universe        Number selected         Number valid
     Small              1 to 99                    3007                       62                    47
   Medium             100 to 399                   2433                       47                    33
     Large           400 or more                   665                        48                    43




        4
        All statistics are from the CDC’s National Hospital Ambulatory Medical Care Survey: 1998 Emergency
Department Summary, available on CDC’s website at http://www.cdc.gov/nchs/data/ad317.pdf.
        5
         For 37 percent of visits, the patient’s HMO status was unknown
        6
         We removed military hospitals from the universe because they have extremely limited contact with
private managed care plans. We removed psychiatric hospitals from the universe because of their unique nature
and because our sample contained too few of them to constitute a statistically valid sub-population.
        7
         Frequency totals are current as of May 1998.

    EMTALA — Emergency Department Survey                8                                         OEI-09-98-00220
         In our initial call to the hospital, we verified that the hospital operated an emergency
         department and obtained the name of its director. We completed telephone interviews
         with directors in 121 of the 123 valid hospitals, meeting our goal of 30 in each stratum.
         Each interview lasted from 15 to 30 minutes.

         We requested lists of emergency physicians, emergency nurses, on-call specialists, and
         registration staff from each valid hospital8; we received the lists from 109. For each
         hospital, we selected a random sample of six individuals from each category to whom we
         sent the mail survey.9 In total, we received 855 responses to the 2316 surveys
         (37 percent) we mailed, including responses from 36 percent of emergency physicians,
         46 percent of nurses, 32 percent of on-call specialists, and 33 percent of registration staff.
         As shown in the appendix, we received enough valid responses to make national
         projections with acceptable precision. Our analysis of the mail survey revealed that
         respondents were from slightly smaller hospitals located in slightly less urban areas than
         non-respondents.

         To increase our response rate and to promote candor, we were committed to protecting
         the identities of our respondents throughout the study. Each hospital was assigned a code
         number which linked the surveys to hospital identification information. After we finished
         gathering demographic data for each hospital, we deleted the database which contained
         the identification information, leaving no way to link a hospital’s code with its name,
         address, or Medicare provider number. Our coding of the mail surveys prevented the
         connection, at any time, of a respondent to a particular survey.




         8
           For the remainder of this report, we will refer to these four groups collectively as “emergency department
staff,” although emergency and on-call physicians are not always emergency department employees.
         9
         In instances where fewer than six individuals were employed in a staff category, we sent surveys to all
staff members of that category.

    EMTALA — Emergency Department Survey                  9                                           OEI-09-98-00220
                                     FINDINGS

Emergency department personnel are familiar with EMTALA
requirements, but many are unaware of recent policy
changes
     The majority of emergency physicians, nurses, registration staff, and on-call specialists
     indicate that they are familiar with most of EMTALA's requirements. Overall, more than
     80 percent of emergency department staff are familiar with at least 12 of the
     15 EMTALA provisions listed on our survey. We conclude that staff meeting this
     threshold are “highly familiar” with EMTALA. Conversely, only 6 percent of staff are
     familiar with three or fewer requirements. Emergency physicians and nurses are more
     likely to be familiar with EMTALA than either registration staff or on-call specialists (see
     Figure 2).
                                           Figure 2




     While more than 90 percent of staff are familiar with the guidelines governing the
     treatment of emergency department patients, fewer are familiar with other aspects of the
     law and regulations. About 80 percent are aware of requirements to post patients’ rights
     signs in the emergency room and to maintain a central log of emergency visits. Fewer
     than 70 percent know that transfer records must be kept for 5 years and that hospitals are
     enjoined from taking retaliatory action against employees who refuse to authorize
     inappropriate transfers or who report violations.

     Although almost all emergency department directors are informed about EMTALA, they
     often are not aware of recent policy changes. While almost 90 percent of directors
     regularly receive information about EMTALA, it generally comes from other hospital
     staff, professional associations, newsletters, or the Internet. Only 11 percent receive
     information directly from HCFA. Perhaps as a consequence, only 65 percent of directors
     are aware of HCFA’s Interpretive Guidelines, published in June 1998, and only


  EMTALA — Emergency Department Survey        10                                     OEI-09-98-00220
     27 percent knew of the proposed EMTALA Advisory Bulletin issued by HCFA and the
     OIG in November 1998.10



Training increases EMTALA familiarity for all staff, but on-
call specialists and staff in high-volume emergency
departments are less likely to receive training
     Not surprisingly, training                              Figure 3
     has a considerable positive
     effect on EMTALA
     awareness. On-call
     specialists who are trained
     show the most significant
     increase in familiarity;
     other staff experience
     smaller, but still
     substantial, gains (see
     Figure 3). One sign of
     increased familiarity is
     that registration staff who
     have received EMTALA
     training are significantly

     less likely than those who

     have not to request insurance information before a screening exam is provided.


     Almost two-thirds of emergency physicians, nurses, and registration staff have received

     some training on EMTALA, compared to only about one-quarter of on-call specialists. 

     Training usually covers most aspects of EMTALA, though emergency physicians and

     nurses are more likely to receive extensive training. Training received by respondents

     usually occurred within 12 months prior to the survey and was conducted by hospital staff. 

     Professional associations, such as ACEP, and private consultants also provide training.


     Aside from emergency physicians, staff in high-volume emergency departments are less

     likely to receive training than their counterparts in less busy environments (see Figure 4 on

     the following page). In high-volume departments, emergency physicians were more likely

     than any other staff type to access multiple information sources, which may be why

     training for emergency physicians does not follow the same trend as for other staff.





     10
          The Advisory Bulletin became final on November 10, 1999 — after our survey was completed.

  EMTALA — Emergency Department Survey              11                                         OEI-09-98-00220
                                          Figure 4




Respondents report that hospitals generally comply with
EMTALA, but some concerns about compliance remain
     Under EMTALA, a medical screening exam cannot be delayed in order to inquire about an
     individual's method of payment. According to more than 70 percent of registration staff,
     patients are not even asked for health insurance information until after a screening exam
     has been provided (see Figure 5). Nineteen percent collect insurance information before
     the screening exam or while it is taking place, but this does not necessarily mean

                                         Figure 5




  EMTALA — Emergency Department Survey      12                                   OEI-09-98-00220
         care has been delayed. The remainder say that registration depends on the condition of
         the patient. Cases that appear to be serious are seen immediately, and less critical patients
         may be registered while they wait for qualified personnel to become available to perform a
         medical screening exam.

         Almost 35 percent of registration staff report that they contact health plans for
         authorization of screening exams, and 25 percent seek authorization for stabilizing
         treatment. Staff11 in hospitals with a high percentage of Medicaid patients are more likely
         to request authorization for stabilizing treatment than those in less Medicaid-dominated
         facilities. Staff usually request authorization while the screening or treatment is underway
         or after it has been performed.

         While ninety-five percent of staff report that their hospital has implemented policies to
         comply with the above registration and other major EMTALA requirements, a small
         number believe that their hospitals are engaged in practices which may violate the law.
         Four percent believe an inappropriate transfer from their hospital has taken place in the
         past year. Eight percent, including almost 18 percent in hospitals with a large proportion
         of Medicaid beneficiaries,12 believe that decisions regarding medical screening are at least
         sometimes influenced by a patient's ability to pay. Furthermore, 15 percent of staff in
         those hospitals that seek authorization for screening exams and 10 percent in those that
         seek authorization for stabilizing treatment believe that screening or treatment is not
         provided when authorization is denied.


Respondents believe that some aspects of EMTALA are
unclear or questionable
         Despite an overall high level of familiarity, more than 40 percent of emergency physicians
         and more than 60 percent of directors believe that some parts of the EMTALA law or
         regulations are unclear. Staff often mention that the terms “emergency medical condition”
         and “medical screening exam” need more precise definitions. “Stable for discharge” is
         another term that causes some anxiety among respondents. Since they cannot guarantee
         timely appointments with specialists, emergency physicians worry that EMTALA may
         obligate them to ensure that a patient has appropriate follow-up care outside the
         emergency department. In addition to concerns about these terms, many staff have
         questions about registration and other hospital procedures in light of EMTALA.




         11
              On-call specialists’ responses were not considered for this issue.
         12
           Medicaid percentage was determined by dividing the number of Medicaid adult and pediatric bed days
by the total adult and pediatric bed days for each hospital. Data are from facility cost reports beginning in Fiscal
Year 1997.

    EMTALA — Emergency Department Survey                    13                                         OEI-09-98-00220
      Many specific questions surrounding appropriate transfers surfaced in the two surveys.
      Several respondents were unclear whether EMTALA applied to a transfer of an
      emergency department patient to another building on the same medical campus.
      Conversely, a director at a hospital with buildings on two separate campuses wondered
      how EMTALA applied to transfers between those facilities. Others questioned
      EMTALA’s applicability to patients who are otherwise stable but must be transferred to a
      specialist’s office or another facility with special equipment in order to complete testing.
      One on-call specialist feared that “the exact nature of specialized care may encourage
      transfer, but fear of [an] EMTALA sanction may discourage [it].”

      State law can further complicate the landscape for hospitals within a particular State. For
      instance, according to one director, Indiana’s Medicaid regulations stipulate that the
      emergency physician should call the primary care physician before screening, but
      EMTALA mandates a screening without delay. In Delaware, according to another
      director, any adult candidate for involuntary psychiatric commitment must be transferred
      to the State hospital, but these patients are not defined as “stable for transfer” under
      EMTALA.

A number of respondents believe that some current interpretations and practices
exceed legislative intent

      While respondents generally agree that EMTALA is an important law, many believe that
      the effects of associated regulations exceed the intent of the legislation. Some directors
      believe that emergency medicine is becoming over-regulated, and that this increased
      regulation is not always in the best interest of the patient. Others say that assessing civil
      monetary penalties in EMTALA cases where there is a quality of care issue turns the law
      into a federal malpractice statute. “It seems to us that EMTALA has become a catch-all
      to enforce quality of care, instead of just the anti-dumping statute it was originally
      intended to be,” summarized one director.

      One particularly controversial question is “When does a hospital’s EMTALA
      responsibility end?” Some believe that EMTALA covers patients who are admitted to the
      hospital through any department and later develop an emergency medical condition. Many
      of the respondents to our surveys disagree with this interpretation and believe that such an
      opinion represents a departure from the intent of the law. For example, one director
      expressed concern that such a view would expose hospitals to EMTALA whenever an
      appropriately discharged patient is readmitted for an exacerbation of the original
      condition. The Department plans to issue a Notice of Proposed Rulemaking on this issue
      in the near future.




   EMTALA — Emergency Department Survey         14                                      OEI-09-98-00220
Respondents believe that while EMTALA may help protect
patients, it also may contribute to a hospital’s administrative
and financial problems
EMTALA may have a positive effect on care

      Directors find that EMTALA generally has either a positive effect or no effect on the
      delivery of emergency services. At 44 percent of emergency departments, directors
      believe EMTALA has improved quality of care, mainly through the patient protections it
      provides. Forty-one percent, however, say that patient care is not affected. Many of these
      directors state that their hospital already had provided screening and stabilization services
      to all emergency patients before EMTALA was implemented.

Other aspects of the emergency department may suffer

      In contrast to any patient care improvements, EMTALA has had a negative effect on other
      aspects of emergency medicine, according to more than 25 percent of directors and almost
      40 percent of staff. Many staff believe that it creates layers of unnecessary bureaucracy
      and complicates routine procedures. Some also believe that it promotes overutilization of
      the emergency room, explaining that patients may obtain treatment for non-emergency
      conditions by exploiting hospitals' fear of violating EMTALA. According to some
      respondents, these are often managed care patients who do not or cannot obtain an office
      visit with their primary care physician.

      Though not specifically asked, 12 percent of directors volunteered that EMTALA has
      contributed to the financial problems that many emergency departments are now facing.
      Mandating medical screening and stabilization of emergency conditions without providing
      a source of funding is one of their major concerns. Several respondents commented that
      having to provide screening exams for non-emergent patients who lack insurance or
      whose insurance will not pay is especially frustrating.



Investigations, many of which do not confirm violations,
often prompt changes in forms and procedures
      According to HCFA logs, since 1986 a total of 73 investigations were conducted at 47 of
      the 123 valid hospitals in our sample. Twenty of the hospitals were investigated multiple
      times in that period, one of which underwent five separate investigations. Larger hospitals
      and those with high-volume emergency rooms are more likely to be investigated, which is
      not surprising since they see more patients and have a greater chance of having a
      complaint lodged against them.




   EMTALA — Emergency Department Survey        15                                     OEI-09-98-00220
     Violations were confirmed in only one-third of investigations, but almost half of the
     investigated hospitals changed some aspect of their emergency department's operation as a
     result. Typically, hospitals revised old forms, introduced new ones, or amended other
     practices. A smaller number provided training for staff or revised policies. For more
     information on investigations, see the companion report.



Managed care presents special problems for hospitals in
complying with EMTALA
     Almost 20 percent of directors say that dealing with managed care strains emergency
     department finances, a situation exacerbated by EMTALA. According to some
     respondents, as well as ACEP and other sources, private managed care organizations deny
     or reduce payment for mandated medical screening exams when the patient is found not to
     have an emergency condition. Though some directors indicate that “prudent layperson”
     standards, such as those that exist for Medicare and Medicaid managed care plans, have
     helped secure payment, others suggest that the standards are insufficient to guarantee
     adequate reimbursement. Indeed, a University of North Carolina analysis of two of that
     State’s payers found that 76 percent of the emergency visits denied as “not a medical
     emergency” met the State prudent layperson standard.

     Although the Interpretive Guidelines and the Advisory Bulletin caution hospitals against
     seeking prior authorization, respondents report that many private plans will not pay for
     emergency services that have not been authorized before they are rendered. This leaves
     hospitals with the difficult choice of calling the health plan before the exam and possibly
     violating EMTALA or waiting until after the exam is provided and risking non-payment.
     In the Advisory Bulletin, HCFA and OIG state that they “were unable to resolve [the
     issue] because we do not have the authority under [EMTALA] . . . to regulate non-
     Medicare and non-Medicaid managed care plans.”

     One approach that has been reported as a way for managed care organizations to address
     emergency services is known as “dual staffing.” “Dual staffing” refers to situations where
     a managed care organization stations its own physicians in a hospital emergency
     departments to screen and treat their enrollees who request emergency services. The
     Advisory Bulletin states that, while they are not a per se violation, hospitals which employ
     dual staffing arrangements face added burdens in complying with EMTALA. We found
     that dual staffing is not a widespread practice; only two of the hospitals in our sample have
     dual staffing arrangements. In fact, most directors we interviewed did not even know the
     meaning of the term.




  EMTALA — Emergency Department Survey        16                                     OEI-09-98-00220
Hospitals have difficulty staffing on-call panels for some
specialties
Common factors contribute to many hospitals' specialist problems
                                                   Figure 7
        A hospital’s EMTALA responsibilities
        extend to on-call specialists.               Areas for which specialist coverage is
        Medicare provider agreements require         a problem, in rank order
        hospitals to maintain a list of on-call
        specialists who can complete medical         1. Neurosurgery
        screening exams or provide stabilizing       2. Cardiovascular surgery and cardiology
        treatment for any service for which the      3. Pediatrics and subspecialties
        hospital promotes itself to the              4. Orthopedic surgery
        community. However, many hospitals           5. OB/GYN and neonatal services
                                                     6. Neurology
        are having difficulty filling on-call
                                                     7. Plastic Surgery
        rosters. Although 63 percent of              8. Psychiatry and subspecialties
        directors believe that specialist
        coverage in their emergency
        department is more than adequate, 54 percent of doctors and nurses say staffing is a
        problem for some specialties. Figure 7 displays the most commonly mentioned areas of
        concern. Shortages most often occur because the community in which the hospital is
        located does not provide a sufficient base of patients to support specialists in a particular
        field or because certain services are not offered at the hospital.

        Another aspect of the specialist problem is the refusal of specialists to serve on call panels,
        particularly in States with high managed care penetration or a large proportion of people
        without health insurance. Only 12 percent of emergency physicians and nurses give
        specialists’ refusal as a reason for their on-call shortage, but, of these respondents, 63
        percent work in California, Pennsylvania, Texas, or Nevada. These represent,
        respectively, the States with the highest and third highest rates of HMO penetration and
        uninsured persons among all of the States represented by hospitals in our sample.

        Reports in the national media and research conducted by private organizations suggest
        that financial concerns are at the heart of many specialists’ reluctance to join call panels.
        Respondents to a survey developed by a task force comprised of members of ACEP, the
        California Medical Association, and the California Health Care Association ranked lack of
        adequate payment under managed care and resentment over not being paid as the
        second and third most important reasons for back-up panel problems. According to
        ACEP and several news articles, specialists do not wish to participate on call panels as
        they stand a good chance of not being reimbursed for services which they are required to
        provide.13



        13
            For more information, see the article "Emergency Department Back-up Panels: A Critical Component
of the Safety Net Problem" in Defending America's Safety Net (American College of Emergency Physicians, 1999).

    EMTALA — Emergency Department Survey             17                                         OEI-09-98-00220
                             CONCLUSIONS

Communication and Education

     Many emergency department directors are not aware of important changes to Federal
     EMTALA policy. Since hospitals and physicians face serious penalties for any infractions,
     HCFA and OIG need to ensure that important decisions are communicated to hospitals,
     emergency department directors, and staff in a timely manner. We found that most
     directors and staff receive EMTALA information from professional associations and
     consultants. Therefore, HCFA and OIG should distribute information to these groups as
     well and may wish to consult with them to develop effective more outreach methods.
     Direct e-mail notification to hospitals and posting of decisions on websites are just two
     possibilities that could lead to better dissemination of information.


Managed Care

     The Department should continue to support legislation that would require private
     managed care plans to reimburse hospitals for EMTALA-related services, including
     screening exams which do not reveal the presence of an emergency medical condition.
     This is important because EMTALA requires hospitals to provide screening exams and
     stabilizing treatment, but the Act imposes no requirements on private managed care plans
     to pay for these services. Although the Advisory Bulletin clearly states that seeking prior
     authorization is improper, HCFA and OIG have no authority to compel private health
     plans to pay for emergency services.


Uncompensated Care and On-Call Panels

     Lack of compensation for screening and stabilization services to the uninsured is
     increasingly burdensome to hospitals. In addition, many hospitals are experiencing
     increased difficulty in retaining on-call specialists. These are very complex problems
     which exceed the scope of our study; solutions may involve action at the Federal, State,
     and local levels as well as from hospitals and other private entities.


AGENCY COMMENTS

     We received written comments from HCFA on the draft report (see Appendix B). The
     HCFA agreed with our conclusions. The HCFA also offered several technical comments,
     which we have incorporated where appropriate.




  EMTALA — Emergency Department Survey        18                                     OEI-09-98-00220
                                                                     APPENDIX A


                           Sample Confidence Intervals
The following table shows point estimates and 95 percent confidence intervals for selected
statistics and their location in the report.

 Statistic                                                 Point             95%
                                                           Estimate   Confidence Interval
 Familiarity by staff type (p.9, Figure 2) — Emergency
                                                             94.1%       89.3% - 98.9%
 physicians
 Percent of directors who regularly receive EMTALA
                                                             87.2%       80.6% - 93.8%
 information (p.9)
 Percent of directors who receive EMTALA
                                                             11.4%       5.2% - 17.7%
 information directly from HCFA (p.9)
 Training by staff type — On-call physicians (p.10)          26.2%       16.4% - 36.1%
 Percent of registration staff who say insurance status
                                                             13.3%       6.7% - 19.8%
 is collected before screening (p.11, Figure 5)
 Percent of staff who believe an inappropriate transfer
                                                             4.48%        2.4% - 6.6%
 has taken place (p.12)
 Percent of registration staff who say authorization is
                                                             24.7%       15.9% - 33.5%
 sought for stabilizing treatment (p.12)
 Percent of directors who are unclear on or who
                                                             61.9%       52.4% - 71.4%
 question some aspect of EMTALA (p.12)
 Percent of directors who say EMTALA does not
                                                             41.4%       31.6% - 51.2%
 affect patient care (p.14)
 Percent of directors who say EMTALA has had a
                                                             12.0%       5.2% - 18.7%
 negative effect of finances (p.14)
 Percent of investigated hospitals that changed
                                                             49.8%       26.4% - 73.2%
 something in response to investigation (pp.14-15)
 Percent of emergency physicians and nurses who say
 that specialist coverage is a problem at their hospital     54.4%       47.8% - 61.0%
 (p.16)




   EMTALA — Emergency Department Survey          19                             OEI-09-98-00220
                                                    APPENDIX B


                                 Agency Comments





EMTALA — Emergency Department Survey    20                OEI-09-98-00220
                                            APPENDIX B




EMTALA — Emergency Department Survey   21         OEI-09-98-00220
                                            APPENDIX B




EMTALA — Emergency Department Survey   22         OEI-09-98-00220
                                            APPENDIX B




EMTALA — Emergency Department Survey   23         OEI-09-98-00220
